                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
            ,'


 Case Number: I03110055/Closeout                                                            Page 1 of 1

                                                                                                             /

                                                                                                       T




         The National Science Foundation (NSF) Office of Inspector General (OIG) selected this award as
         part of a review of conferences, workshops and symposia with respect to compliance with
         program income requirement. The award provided $30,000 to convene a group of experts to
         advise NSF on a research agenda for computer security. Our review raised concerns regarding
         questionable travel costs, hotel expenses and a credit which was posted to the grant after the
         grant was closed.

         NSFIOIG requested that university1 provide us with financial information and supporting
         documentation for the award. The University provided all requested documents and explained
         that some of the air travel was contingent on whether participants flew on Sunday (lower fare) or
         flew on other days. The University also provided copies of the Federal Cash Transaction Report
         (FCTR) and general ledger reflecting an indirect cost credit adjustment.

          The University supplied adequate financial documentation to support funds charged to the grant.
          Accordingly, this case is closed.




           Footnote Redacted




NSF OIG Form 2 (1 1/02)
